Taylor A.R. Meehan
Taylor.Meehan@BartlitBeck.com

Courthouse Place
54 West Hubbard Street
Chicago, IL 60654
main: (312) 494-4400
direct: (312) 494-4416

April 6, 2020

BartlitBeck.com

Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543
Re:

General Electric Company v. United Technologies Corporation, No. 19-1012

Dear Mr. Harris:
I represent Respondent in the above-captioned case. I write pursuant to Supreme Court Rule
29.6 to inform the Court that on April 3, 2020, United Technologies Corporation consummated a
merger with Raytheon Company, under which Raytheon Company became a wholly owned subsidiary
of UTC, and UTC changed its name to Raytheon Technologies Corporation.
In light of the merger, the revised caption for this case should now read General Electric Company
v. Raytheon Technologies Corporation.
Also in light of the merger, the corporate disclosure statement in Respondent’s forthcoming
brief in opposition will be as follows: Raytheon Technologies Corporation has no parent corporation,
and no publicly held company owns 10% or more of its stock.

Warm regards,

Taylor A.R. Meehan

cc: Gregory G. Garre
Counsel for Petitioner

